Office of Inspector General
    Audit Report


STATUS OF TRANSFORMATIONAL
   PROGRAMS AND RISKS TO
  ACHIEVING NEXTGEN GOALS
    Federal Aviation Administration

     Report Number: AV-2012-094
      Date Issued: April 23, 2012
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Status of Transformational Programs                Date:    April 23, 2012
           and Risks to Achieving NextGen Goals
           Report No. AV-2012-094

  From:    Jeffrey B. Guzzetti                                     Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           In 2003, Congress mandated that the Federal Aviation Administration (FAA)
           transition the current National Airspace System (NAS) to the Next Generation Air
           Transportation System (NextGen)—a major redesign of the air transportation
           system intended to accommodate a significant increase in air traffic by 2020. As
           envisioned, NextGen will provide new capabilities such as precision satellite
           navigation, digital data link communications for air traffic controllers and pilots,
           and an integrated weather system. NextGen is also expected to reduce aviation
           impact on the environment, increase the capacity of the NAS, and make air
           transportation safer and more reliable.

           FAA has identified six “transformational programs,” which are to provide the
           foundational technologies and infrastructure needed for NextGen. These six
           programs are Automatic Dependent Surveillance Broadcast (ADS-B), System
           Wide Information Management (SWIM), Data Communications (DataComm),
           NextGen Network Enabled Weather (NNEW), NAS Voice System (NVS), and
           Collaborative Air Traffic Management Technologies (CATM-T). Through fiscal
           year (FY) 2011, FAA has invested approximately $1.5 billion in these programs.
           Projected spending for the transformational programs represents about 60 percent,
           or $549 million, of FAA’s FY 2012 capital budget for NextGen.

           The Chairman and Ranking Member of the Senate Committee on Commerce,
           Science, and Transportation and the leadership of the Subcommittee on Aviation
           Operations, Safety, and Security requested that we review FAA’s progress in
           planning and implementing the NextGen transformational programs. Accordingly,
           our audit objectives were to (1) determine the status of the programs’ cost,
           schedule, and performance baselines, (2) assess FAA’s progress in implementing
                                                                                   2


these programs, and (3) identify the risks to achieving NextGen goals. We
conducted this audit in accordance with generally accepted Government auditing
standards. Exhibit A details our audit scope and methodology.

RESULTS IN BRIEF
FAA has not yet established total program costs, schedules, or performance
baselines for any of the six NextGen transformational programs. Rather, the
Agency has decided to approve these programs in shorter, discrete segments in
order to minimize risk in the near term. According to FAA, this approach allows
the Agency to develop programs and implement some capabilities while
requirements continue to evolve. However, according to acquisition management
best practices and our past work, having a reliable and comprehensive program
baseline through its end-state is key to providing effective oversight of a program
and avoiding the cost overruns, schedule delays, and unmet expectations that FAA
has experienced with past modernization efforts. Specifically, FAA has only
established formal baselines (i.e., firm cost, schedule, and performance
parameters) for segments of three of the six programs, and plans to baseline the
initial segments of the remaining three by 2013. As a result, FAA’s approach
limits visibility into what the transformational programs will require for successful
implementation, how much they will cost, and what they will ultimately deliver.

FAA’s progress in implementing the transformational programs has been limited
by a lack of finalized program requirements. Firm program requirements are
essential to successful program implementation. For example, FAA has not yet
finalized requirements for displaying ADS-B In traffic information in the cockpit,
for accelerating the initial delivery of DataComm services to air traffic control
towers, or for finalizing agreements between the SWIM program office and other
program offices implementing SWIM. Because the transformational programs’
requirements are not yet finalized, FAA does not plan to start implementing their
capabilities throughout the NAS until 2015 at the earliest, and it is uncertain when
the programs will start delivering benefits to achieve NextGen goals, such as
enhanced capacity and reduced Agency operating costs. Due to this lack of clarity
on when they will realize benefits, airspace users are concerned about investing to
equip aircraft with NextGen avionics for ADS-B and DataComm, two programs
key to FAA’s continued NextGen progress. Without widespread equipage,
however, FAA states the Agency will be unable to begin markedly increasing
safety and capacity or saving time and fuel through these NextGen technologies.

Other risks exist to the effective implementation of the transformational programs.
These include the lack of an integrated master schedule for all the transformational
programs to better coordinate how program capabilities—many of which are
interdependent—will be implemented. Without this key planning tool, it will
remain difficult for FAA to fully prioritize which transformational program
                                                                                                               3


capabilities will provide users with the greatest benefits or make trade-offs
between program requirements when necessary. FAA also has yet to address
complex integration issues with its automation systems to enhance flight data
processing and its telecommunications infrastructure. For example, FAA must
resolve interface problems between the transformational programs and automation
systems that enhance flight data processing such as the En Route Automation
Modernization (ERAM) program. 1

We are making several recommendations on steps FAA needs to take to better
implement and oversee the transformational programs.

BACKGROUND
Six cross-cutting transformational programs are expected to deliver the new
infrastructure required to achieve FAA’s NextGen vision, as described in table 1.
Table 1. Six NextGen Transformational Programs

        Program Name                                         Program Description

Automatic Dependent              A satellite-based surveillance technology that combines the use of satellites,
Surveillance-Broadcast           aircraft avionics, and ground-based systems to provide more accurate
(ADS-B)                          information about aircraft location for pilots and air traffic controllers.

System Wide Information          Will provide for a more agile exchange of information through a secure,
Management (SWIM)                NAS-wide information web that will connect FAA systems with other
                                 agencies, and airspace users.

Data Communications              Will provide 2-way data communication between controllers, automation,
(DataComm)                       and flight crews; enhance air traffic control message generation.

NAS Voice System (NVS)           Will provide a new air traffic control infrastructure with network-capable
                                 switches that control NVS data and voice communication paths.

NextGen Network                  Will serve as the infrastructure core of NextGen aviation weather support
Enabled Weather (NNEW)           services and provide access to a NAS-wide common weather picture.

Collaborative Air Traffic        Will provide operational enhancements to the existing Traffic Flow
Management                       Management System (TFMS) infrastructure. TFMS or traffic management
Technologies (CATM-T)            system mission is to balance air traffic demand with system capacity to
                                 ensure the maximum efficient utilization of the NAS.

Source: FAA’s NextGen Implementation Plan
Note: See exhibit B for details on each program’s description and current status with regard to
implementation, expected benefits, and current cost estimates.

FAA capital investment programs generally follow the acquisition lifecycle set
forth in the Agency’s Acquisition Management System (AMS), which establishes

1
    ERAM is intended to provide improved flight data processing, communications, and display capabilities for air
    traffic controllers at FAA’s high altitude en-route centers.
                                                                                                       4


policy and guidance for all aspects of FAA’s acquisition process (see appendix A).
According to FAA’s AMS policy, capital investment programs are generally
baselined at the final investment decision milestone, when the Joint Resources
Council (JRC) 2 approves the cost and schedule parameters, the specific
performance requirements, and expected benefits that a program will accomplish.
The Congress and the Office of Management and Budget (OMB) use acquisition
baselines to track progress with FAA’s major investments. According to OMB,
program baselines act as a guide throughout the life of an acquisition to
(1) provide a basis for measuring performance, (2) identify who is accountable for
deliverables, (3) describe the implementation approach and interdependencies, and
(4) identify key decision points.

FAA HAS NOT FULLY BASELINED THE TOTAL COST,
SCHEDULE, OR PERFORMANCE REQUIREMENTS FOR
NEXTGEN TRANSFORMATIONAL PROGRAMS
FAA has yet to establish baselines for the total program cost, schedule, or
performance requirements for any of the six NextGen transformational programs.
Instead, FAA adopted a segmented approach for development and
implementation. FAA has only approved cost and schedules for the initial
segments of three transformational programs—ADS-B, SWIM, and CATM-T.
Cost estimates for the initial segments of the three programs total $2.1 billion, and
scheduled completion for the three extends through 2016. FAA plans to approve
the baselines for the initial segments of the remaining transformational
programs—DataComm, NNEW, and NVS—by 2013 (see table 2 below). Until
FAA formally establishes baselines for a total program, decision makers and
airspace users will not have complete information about how much these programs
will ultimately cost, how long it will take to complete them, or what capabilities
they will ultimately deliver.




2
    The JRC is FAA’s investment review board. The JRC makes corporate-level resource decisions, including
    authorization and funding for new investment programs.
                                                                                                                  5


Table 2. Status of NextGen Transformational Programs Baseline
                   Total                      Segments                                          Implementation of
                                                                               Baseline
                 Program                                 Baselined                               Initial Segment(s)
    Program                     Currently                                        Year
                 Baselined                Baselined         Costs                                Timeframe(Start -
                                Planned                                       Actual/Plan
                   (Y/N)                               ($ in Millions)                                   End)
                                                                         a
    ADS-B             N             4            2          $1,711.3               2007            2007 - 2014
    SWIM              N             3            1              $263.3             2009            2009 - 2015
                                       b
    CATM-T            N            3             2              $162.5             2008            2008 - 2016
    DataComm          N             2            --              TBD               2012                TBD
    NNEW              N             2            --              TBD               2013                TBD
    NVS               N             2            --              TBD               2012                TBD
     Total                                                   $2,137.1

Source: OIG analysis of FAA transformational programs data.
a
     In 2007, FAA initially approved approximately $1.68 billion in baseline costs for ADS-B. In March
     2011, the baseline increased by about $30 million, including $13.6 million for the Colorado Wide Area
     Multilateration (WAM) Phase 2 program.
b
     Number of CATM-T segments excludes CATM-T Work Package 1 because FAA did not identify it as
     transformational.

FAA Has Not Determined the Total Cost To Develop and Implement
the Transformational Programs
The total costs to implement the six transformational programs remain uncertain
because FAA has only approved funding for the initial segments of some
programs, but has not established baselines for any of the programs’ segments
through their end-state. Over the next 5 years, FAA plans to invest more than
$2 billion to develop and implement these programs (see table 3). However,
current planning estimates suggest the six programs in their entirety could cost as
much as $6.4 billion combined.

Table 3. Transformational Programs Spending Plan, FY 2012 to FY 2016
(Dollars in Millions)
                                             Proposed Spending by Fiscal Year                           Total
      Program          2012 (Enacted)       2013         2014          2015           2016            FY12-16
      ADS-B                     $289        $273         $276          $159           $158              $1,155
      DataComm                  $143        $143         $120          $161           $135               $702
      SWIM                       $66          $33         $28                $59          $62            $248
      CATM-T                     $42          $34         $29                 $3          $16            $124
      NVS                          $9         $10         $30                $30          $30            $109
      NNEW                         $0         $24         $25                $10          $10              $69
      Total                     $549        $517         $508          $422           $411              $2,407

Source: FAA’s NAS Capital Investment Plan & FAA’s Enacted FY 2012 Budget
                                                                                                      6


ADS-B—FAA has estimated it will cost about $4 billion to implement the ADS-B
program. So far, however, FAA has only approved $1.7 billion for the first two
segments to fund completion of the nationwide deployment of the ground
infrastructure. Through FY 2011, FAA has allocated $890 million for the ADS-B
program. FAA plans to baseline at least two more ADS-B segments that are
currently estimated to cost about $2.3 billion combined.

SWIM—As we reported in June 2011, 3 FAA plans to implement SWIM in three
segments, but has only approved funding for the first segment. However, costs for
the first segment have already increased by about $100 million (from $164 million
to $263 million), and FAA currently plans to spend $263 million to develop and
implement SWIM services on seven FAA air traffic management systems. FAA
has not determined the cost estimates for completing the remaining two segments,
but in response to our 2011 report recommendations, FAA indicated it was
planning to baseline Segment 2 costs by September 2012, and Segment 3 costs by
September 2014.

CATM-T—Through CATM-T, FAA currently plans to implement improvements
in its traffic flow management infrastructure in a series of three separate work
packages. To date, FAA has approved $162.5 million for two of the planned three
packages. Through FY 2011, FAA has allocated $54 million for the CATM-T
program. FAA has yet to approve the cost estimate for completing the remaining
work package.

DataComm, NNEW, NVS—FAA has not established baselines for DataComm,
NNEW, nor NVS. However, the Agency has invested approximately $326 million
through FY 2011 to support acquisition planning activities in preparation for the
DataComm and NVS final investment decisions scheduled in 2012 and the NNEW
decision scheduled for 2013. FAA has provided the DataComm program with
most of the funds—approximately $217 million—to support program planning
and design efforts, including system engineering and integration work as well as
some software prototyping. FAA currently plans to spend an estimated $1.4 billion
to implement DataComm but previously reported the program could cost as much
as $3 billion in total.

Schedules for Implementing the NextGen Transformational Programs
Remain Uncertain
Final implementation schedules for each of the NextGen transformational
programs remain uncertain because FAA has not fully defined program
requirements. Instead, FAA established baselines for the initial segments of three

3
    OIG Report No. AV-2011-131, “FAA’s Approach to SWIM Has Led To Cost and Schedule Uncertainty and No
    Clear Path for Achieving NextGen Goals,” June 15, 2011. OIG reports are available on our Web site at
    http://www.oig.dot.gov/.
                                                                                                                          7


of the programs (ADS-B, SWIM, and CATM-T). While FAA is proceeding with
implementation of the first segments, a number of challenges remain to meet the
current schedule. For example:

    • ADS-B—FAA plans to complete the first two ADS-B segments by 2014, yet
      it has not determined when the more advanced ADS-B applications in the
      future segments 4—those most sought by users—will be implemented. FAA’s
      schedule may also be impacted by its ability to identify and mitigate risks
      associated with displaying ADS-B information for controllers on FAA’s
      automation platforms, such as ERAM. FAA plans to complete this effort
      between 2011 and 2015. However, airspace users are not required to equip
      with ADS-B Out 5 avionics until 2020. Moreover, ADS-B’s initial capabilities
      will be limited. ADS-B Out will initially only provide surveillance
      information that replicates existing domestic radar coverage.

    • SWIM—FAA’s current plan for completing Segment 1 of the SWIM
      program in 2015 represents a 2-year delay from the original estimated
      FY 2013 completion date. Further slippages in SWIM’s schedule may occur
      because FAA recently decided to re-plan when SWIM services using ERAM
      will be implemented, if at all. Because SWIM implementation depends
      heavily on ERAM but ERAM is now projected to experience a 4-year delay,
      the Agency is developing a new plan to minimize dependence on ERAM.
      However, FAA does not intend to decide on this new plan until September
      2012.

    • CATM-T—FAA’s plans to use CATM-T to provide incremental software
      enhancements to the Traffic Flow Management System (TFMS). 6 However,
      according to CATM-T officials, FAA’s plans may be delayed due to software
      development issues. Additionally, other programs, such as ERAM and
      SWIM, may not deliver expected capabilities or meet schedule requirements,
      which will cause a ripple effect on CATM-T’s schedule and expected
      improvements.

FAA has delayed making the final investment decisions and baselining the costs
and schedule parameters for the three remaining transformational programs—
DataComm, NVS, and NNEW—by nearly 3 years. These final investment
decisions are now scheduled for 2012 and 2013. Consequently, approval of their


4
    Advanced ADS-B applications or ADS-B “In” provides benefits such as enhancing capacity at congested airports
    under all weather conditions, and enables air to air applications that could change current air traffic control concepts.
5
    ADS-B “Out” allows aircraft to broadcast position and other flight data to ground systems for en route, terminal, and
    surface operations.
6
    TFMS or traffic management system mission is to balance air traffic demand with system capacity to ensure the
    maximum efficient utilization of the NAS.
                                                                              8


initial segments has been delayed primarily because FAA has revised the
acquisition strategies for each of the programs. For example:

 • DataComm—FAA revised its initial plans for DataComm. FAA is now
   planning to implement the program in two rather than three segments.
   Segment 1 will address tower services and upgrades to support data
   communications in the high-altitude environment, and Segment 2 will
   address terminal environment enhancements and DataComm’s advanced
   capabilities. However, the timeline for each segment’s final investment
   decision has been further delayed. FAA initially estimated a final investment
   decision milestone for the first segment in FY 2010. The Agency now
   intends to split Segment 1 implementation into two phases with separate final
   investment decisions for each phase. FAA plans to complete the final
   investment decision and approve cost and schedule estimates for the first
   phase of Segment 1 in May 2012. However, FAA has not identified a
   timeframe for completing the final investment decision for the second phase
   of Segment 1, which had originally been scheduled for July 2013. In
   addition, FAA’s schedule remains fluid for Segment 2, which addresses
   terminal environment enhancements and DataComm’s advanced capabilities.

 • NVS—FAA has delayed the NVS program’s initial investment decision by
   more than 1 year, and the final investment decision for Segment 1 has slipped
   more than 2 years, from December 2009 to August 2012. NVS program
   officials stated that the program will have at least two segments with the
   possibility of a third segment. Currently, program officials are estimating a
   final investment decision for the second segment in 2017. They also
   indicated additional schedule challenges are likely since FAA must develop a
   new voice switch to support both terminal and en route operations, along
   with new NextGen activities (i.e., Unmanned Aircraft Systems(UAS)) before
   it can implement the NVS program.

 • NNEW—The NNEW program planning documents now indicate that the
   program is scheduled for a final investment decision in September 2013—a
   delay of more than 3 years. The NNEW program office intends to implement
   the program in two segments. The program office completed the early
   planning phase (i.e., the Concept and Requirements Definition phase) in
   December 2010—almost 8 months after the originally planned April 2010
   final investment decision.

Performance Requirements for NextGen Transformational Programs
Have Not Been Finalized and Continue To Evolve
FAA has not finalized the performance requirements for any of the six NextGen
transformational programs through their end-state. Specifically:
                                                                                                                   9


     • ADS-B—As we noted in our October 2010 report, 7 realizing the full range of
       ADS-B benefits will depend on finalizing performance requirements for
       ADS-B In, which will display traffic information in the cockpit. However,
       FAA has not fully defined its ADS-B In requirements to certify the type of
       cockpit display needed to achieve those benefits. In FY 2010, FAA
       established an Aviation Rulemaking Committee (ARC) to conduct research
       and analysis of advanced ADS-B In applications. In September 2011, the
       ARC reported 8 to FAA that there is no near-term business case for ADS-B In
       and that further development and analysis is needed. The ARC recommended
       that FAA continue to use flight trials to validate operations and associated
       benefits.

     • SWIM—FAA recently decided to re-plan SWIM’s ERAM requirements,
       which will impact requirements for five of the seven systems that were
       expected to use ERAM to support their capabilities. FAA acknowledges that
       requirements will not be finalized by programs implementing SWIM until
       just prior to the start of software development. This lack of defined
       requirements for Segment 1 has left SWIM with no clear end-state.

     • DataComm—FAA has not formally established performance requirements
       for DataComm. However, FAA is proposing to accelerate the initial delivery
       of DataComm services to air traffic control towers based on
       recommendations from a joint industry/government task force report 9 by
       relying on equipment already installed on aircraft. The second segment of the
       program will require a more robust data link to accommodate the exchange
       of critical flight information between aircraft and FAA ground automation
       systems. FAA is developing standards for this new data link capability, 10 but
       they are not expected to be complete until 2015.

     • NVS—FAA revised NVS requirements from just replacing aging technology
       to developing a new capability that will replace the current voice switch
       system with a new network. This network, which will support a phased
       implementation, will consolidate the current system’s functions and allow for
       an improved, flexible voice transmission between controllers.



7
     OIG Report No. AV-2011-002, “FAA Faces Significant Risks in Implementing ADS-B Program and Realizing
     Benefits,” October 12, 2010.
8
     A report from the ADS-B In Aviation Rulemaking Committee to the FAA, “Recommendations to Define a Strategy
     for Incorporating ADS-B In Technologies into the NAS,” September 30, 2011.
9
     RTCA, “NextGen Mid-Term Implementation Task Force Report,” September 9, 2009.
10
     The Aeronautical Telecommunications Network (ATN) was developed through the International Civil Aviation
     Organization (ICAO) to provide a more universally capable and reliable ATC data communications system. The
     version called ATN Baseline 2 will be needed for full participation in NextGen in continental U.S. airspace. The
     standards for this version are under development and are being harmonized internationally.
                                                                                                        10


     • CATM-T—FAA’s requirements for CATM-T’s end-state remain fluid. FAA
       plans to propose work packages every 3 to 5 years to provide new or updated
       TFM system capabilities. In 2005, FAA approved CATM-T work
       package 1 11and implemented it between 2006 and 2010. In August 2008,
       FAA stated CATM-T work package 2 would consist of software
       enhancements to introduce seven capabilities. However, by September 2008,
       FAA decided that work package 2 would only include four of the seven
       proposed capabilities, and is expected to be complete by 2014.

     • NNEW—FAA is in the process of developing NNEW program
       requirements. In December 2010, FAA approved the NNEW program to
       enter the initial investment analysis phase. In this phase, the NNEW program
       office is evaluating alternative solutions to satisfying the mission need to
       present the JRC with realistic options to satisfy strategic and performance
       goals by September 2013.

FAA HAS MADE LIMITED PROGRESS IMPLEMENTING NEXTGEN
TRANSFORMATIONAL PROGRAMS AND ACHIEVING NEXTGEN
GOALS AND BENEFITS
While FAA is making some progress implementing the transformational
programs, it is uncertain when the programs will start delivering benefits, such as
enhanced capacity and reduced operating costs. This is largely because FAA has
not baselined or fully defined requirements for any of the transformational
programs through their end-state. For example, FAA is providing limited
capabilities with ADS-B capacity enhancement in the Gulf of Mexico but has not
defined when it will deliver NAS-wide NextGen benefits, particularly at congested
airports. Moreover, airspace users remain skeptical about FAA’s ability to deliver
ADS-B and are concerned about investing to equip aircraft. With SWIM, FAA has
deployed two prototype systems to provide SWIM-weather services for selected
airline operators. FAA also states that other SWIM capabilities have been
developed but yet to be deployed. However, according to FAA, the key initial
capabilities for seamlessly exchanging SWIM information between FAA’s
automation platforms are being re-planned, as FAA recently decided to develop a
strategy to minimize SWIM’s considerable dependence on ERAM. In light of
these new planned changes to SWIM’s capabilities, FAA may face difficulties
with completing SWIM implementation by 2015.

As shown in table 4, the transformational programs are needed to help implement
six specific operational improvements tied to key NextGen goals. However,
FAA’s planning documents only reflect two possible implementation points—

11
     FAA did not identify CATM-T work package 1 as transformational; only later work packages including work
     packages 2, 3, and 4 were identified as transformational.
                                                                                                       11


    earliest and latest—for the initial operational capability (IOC), and these can vary
    by as much as 6 years.
    Table 4. Examples of Transformational Programs Supporting NextGen Goals and
    Capabilities With Proposed Implementation Dates

    Operational Improvements                                                                               IOC
                                                                             Expected
    Expected to Achieve              Programs       Capability                                       Earliest -
                                                                             Benefits
    NextGen Goals                                                                                      Latest
                                                                             Improved
                                                    Delegated
    Initiate Trajectory Based        ADS-B,                                  efficiency and
1                                                   responsibility for in-                          2013 - 2018
    Operations                       DataComm                                increased
                                                    trail separation
                                                                             capacity
                                                                             Enhanced safety
                                                                             due to avoided
    Increase Flexibility in the      ADS-B,         Enhanced surface
2                                                                            read back / hear       2014 - 2018
    Terminal Environment             DataComm       traffic operations
                                                                             back, operational
                                                                             errors
                                                    Full surface traffic
                                                    management with          Enhanced
                                                                                                    2018 - 2024
                                                    conformance              surface safety
                                                    monitoring
    Increase Arrival/Departures at   ADS-B,
3
    High Density Airports            DataComm
                                                    Efficient metroplex
                                                                             Decreased fuel
                                                    merging and
                                                                             burn, emissions,       2020 - 2024
                                                    spacing aircraft-to-
                                                                             and noise
                                                    aircraft separation

                                     CATM-T,                                 Improved
                                                    Initial improved
4   Reduced Weather Impact           NNEW,                                   weather                2013 - 2018
                                                    weather information
                                     SWIM                                    observations

                                     ADS-B,                                  Increased airport
                                     DataComm,      Remotely staffed         capacity in low
5   Transform Facilities                                                                            2018 - 2020
                                     NVS,           tower services           visibility and night
                                     SWIM                                    conditions

                                     ADS-B,         Provide full flight
    Improve Collaborative Air        CATM-T,        plan constraint          Increased user-
6                                                                                                   2013 - 2018
    Traffic Management               NNEW,          evaluation with          preferred routing
                                     SWIM           feedback

    Source: OIG Analysis of FAA’s Planning Documents (NextGen Implementation Plan, NAS Enterprise
    Architect, and Capital Investment Plan).

    Due to this lack of clarity on whether and when these programs will deliver
    benefits, airspace users remain skeptical about FAA’s ability to deliver the
    technologies and are concerned about investing to equip aircraft. Without
    widespread equipage, however, FAA will be unable to begin markedly increasing
    safety and capacity or saving time and fuel through NextGen technologies. For
    example, aircraft will need advanced avionics to achieve these benefits through
    ADS-B and DataComm during nearly every phase of flight.

    Users’ concerns and a lack of clearly defined benefits have triggered debate
    among industry and FAA about whether to use equipage incentives, such as grants
                                                                                                                 12


or loan guarantees, since users are not likely to voluntarily equip. For example,
users may be unwilling to fully commit up front to all ADS-B avionics. FAA
published a rule in May 2010 mandating users to equip for ADS-B Out, which
broadcasts position information from planes to ground systems. However, the
most significant benefits rely on ADS-B In, which will display that information in
the cockpit. 12 FAA expects that once users have invested in ADS-B Out, they will
then voluntarily equip to realize the additional capabilities of ADS-B In. To
demonstrate ADS-B benefits to users, FAA now has agreements with several U.S.
airlines and is paying for new equipment. For example, FAA established an
agreement with a major carrier in which FAA will pay $4.2 million for ADS-B
Out avionics; in turn, the airline will equip as many as 35 aircraft over the next
2 years. This will enable the ADS-B-equipped aircraft to fly two major routes off
the East Coast where traditional radar coverage is unavailable. The air carrier will
pay for the aircraft downtime cost associated with installing ADS-B avionics and
the necessary training for dispatchers and flight crews. However, it remains to be
seen whether this incentive agreement will be effective and whether it will
encourage other users to equip with ADS-B avionics.

Likewise, industry is concerned about FAA’s commitment to delivering
DataComm and a timely return on investment, in part due to similar failed NAS
acquisition efforts in the past. 13 To mitigate these concerns, FAA’s DataComm
program office has proposed a three-prong strategy that includes financial
incentives, improved service for equipped aircraft, 14 and regulatory action if
necessary.

FAA FACES OTHER IMPLEMENTATION RISKS WITH THE
TRANSFORMATIONAL PROGRAMS
FAA faces a number of other risks to the effective implementation of the
transformational programs. Specifically, FAA has not completed an integrated
master schedule to better manage and coordinate how their capabilities—many of
which are interdependent—will be implemented. FAA has not fully addressed
risks associated with complex technological interdependencies with other enabling
programs such as ERAM and the FAA Telecommunications Infrastructure (FTI) 15
program.



12
   “Automatic Dependent Surveillance--Broadcast (ADS-B) Out Performance Requirements To Support Air Traffic
   Control (ATC) Service; Final Rule,” 75 Federal Register 30160-30195 (May 28, 2010)(amending 14 C.F.R. Part 91).
13
   These failed efforts include the Microwave Landing System (MLS) and the Controller-Pilot Data Link
   Communications Program (CPDLC). FAA cancelled the MLS in the 1990s because of industry concerns and
   opposition; in 2003, it cancelled the CPDLC due to uncertain benefits, technical problems, and cost growth issues.
14
   Commonly referred to as “best equipped, best served.”
15
   The FTI network provides the voice, data, and video communications that support operations and mission support
   functions at more than 4,000 FAA and Department of Defense (DoD) facilities nationwide.
                                                                                13


FAA Lacks an Integrated Master Schedule To Help Mitigate Risks in
Implementing NextGen’s Transformational Programs
FAA has not developed an integrated master schedule for implementing the
transformational programs. Therefore, it will be difficult to fully address
operational, technical, and programmatic challenges associated with implementing
the transformational programs’ capabilities because of their complex
interdependencies. For example, NVS will provide a backup to DataComm. In
addition, NNEW will use SWIM messaging capability to disseminate weather data
to FAA and airspace users. According to FAA officials, FAA’s planned integrated
master schedule will provide decision makers with more information to assess the
transformational program’s progress and make necessary trade-offs between cost,
schedule, and performance requirements.

While FAA recognizes the need to coordinate key activities and manage them in
an integrated fashion, efforts thus far have been ineffective. Unlike FAA’s
previous modernization paradigm, which focused on individual programs,
NextGen is extremely complex because systems may be (1) in various stages of
development and maturity, (2) interdependent, and (3) implemented over various
timeframes. FAA created the NextGen Integration and Implementation program
office as a first step to managing integration complexities associated with all its
NextGen efforts. However, to date, FAA is experiencing difficulties in
coordinating between the transformational program offices and the NextGen
Integration and Implementation program office. For example:

 • The NVS program experienced a 2-year delay in its investment decisions due
   to a lack of coordination with the NextGen Integration and Implementation
   program office. According to NVS program officials, the Agency initially
   focused on simply replacing the current aging voice switch system. However,
   the NVS program office completely revised NVS program requirements
   when FAA’s NextGen Integration and Implementation program office
   required NVS capabilities to be expanded to support future NextGen
   operations. For example, FAA revised NVS acquisition strategy to provide
   controllers with the flexibility and capability to select the channels needed to
   communicate with pilots, other controllers, and other facilities.

 • DataComm program officials stated that the program is behind in its original
   development schedule because of delays associated with ERAM. For
   example, due to a lack of coordination between the two programs, in October
   2010, FAA had to revise DataComm’s previously approved acquisition
   strategy to mitigate schedule risks to aligning the program with ERAM
   requirements.
                                                                                                                    14


According to an official from FAA’s NextGen Integration and Implementation
program office, the Agency realizes that its NextGen Implementation Plan did not
provide sufficient detail on integrating and implementing NextGen capabilities
into the NAS. To address this issue, the program office developed the first of a
two-part NextGen Segment Implementation Plan (NSIP). This plan is designed to
provide additional insight into the development and integration of mid-term 16
capabilities, while facilitating lower-level program offices’ planning. As stated in
the NSIP, the NextGen Integration and Implementation program office plans to
coordinate key activities and monitor implementation of NextGen capabilities
through an integrated master schedule. FAA officials indicated that the Agency
has started building schedules for pre-implementation activities. However, the full
integrated master schedule with timelines for transformational program activities
that include completion dates is critical for supporting these assessments and
decisions.

FAA Has Not Fully Developed Mitigation Strategies for Interfacing
NextGen Transformational Programs With FAA’s Automation
Platforms
A major roadblock for NextGen is FAA’s continued problems with automation
programs (i.e., computers and displays for controllers). FAA has not fully
developed mitigation strategies for risks associated with interfacing the
transformational programs with FAA air traffic automation platforms such as
Advanced Technologies and Oceanic Procedures (ATOP), 17 Terminal Automation
Modernization and Replacement (TAMR), 18 and ERAM. FAA’s ability to ensure
controllers have access to the transformational programs’ capabilities will be key
to delivering NextGen goals.

A particular concern is integrating and aligning NextGen programs with ERAM.
In particular, there are critical interdependencies between ERAM and three
transformational programs—ADS-B, DataComm, and SWIM. In June 2011, FAA
formally rebaselined the ERAM program and expects to complete ERAM in
2014—a projected 4-year schedule slip. The Agency forecasts that ERAM will be
$330 million over its approved baseline by the end of FY 2014. As shown in
table 5, FAA is planning to dedicate more than $500 million to specifically
integrate and align ADS-B, DataComm, and SWIM programs with ERAM.




16
     Mid-term encompasses the present to calendar year 2018.
17
     ATOP is being used to control air traffic at all three oceanic sites: the Oakland, CA, New York, NY, and Anchorage,
     AK, Air Route Traffic Control centers.
18
     TAMR is a capital program that employs a phased approach to modernizing the air traffic control systems that
     controllers use at, or near, the nation’s major airports.
                                                                                                          15


Table 5. ERAM Interdependencies and the NextGen Transformational Programs

      Program                               Description of ERAM Interdependency

                       FAA plans to provide the ERAM program as much as $74 million to display ADS-B
      ADS-B
                       data for use by controllers in the high-altitude environment.

                       FAA plans to provide the ERAM program as much as $400 million to develop an
      DataComm         interface that provides controller-pilot message processing and displays
                       information to controllers in the en route centers.

                       FAA plans to provide the ERAM program with as much as $40 million (for SWIM
                       Segment 1 only) to modernize and enhance its flight data processing and external
      SWIM
                       interfaces with terminal air traffic control and the Traffic Flow Management
                       systems.

     Source: FAA program officials and support documentation for ADS-B, DataComm, and SWIM.

FAA has delayed deploying ADS-B capabilities on ERAM and now plans to fully
incorporate ADS-B in an ERAM software release that is expected to be completed
by June 2012. We are currently conducting a separate audit on FAA’s
implementation of ERAM and plan to issue a report later this year. 19

NextGen Transformational Programs’ Reliance on FTI Poses More
Risks to Implementation
FAA faces further risks for implementing the transformational programs due to
their reliance on the FTI program. FTI is a major contributing system to NextGen
and will be pivotal to the successful implementation of several transformational
programs. However, as we previously reported, 20 an FTI outage raised questions
and concerns about the integrity of the FTI network’s design and its ability to
support NextGen initiatives. For example, ADS-B program officials have decided
against using the FTI network to provide its telecommunications services due to
concerns about network reliability and security.

Officials from other transformational program offices—NVS, SWIM, and
DataComm—identified FTI as key to the success of these programs. However,
FTI’s ability to support the programs remains uncertain and introduces program
risk. For example:

     • NVS—The NVS program depends on FTI to provide network connectivity to
       route voice communications for controllers along with radio transmitters and
       receivers. NVS program officials identified FTI as a significant program risk
       because it may not be capable of supporting NVS requirements for air-to-
       ground communications. According to NVS program officials, if that is the

19
   OIG Audit Announcement, “Progress and Problems Implementing the En Route Automation Modernization Program
   Federal Aviation Administration,” September 14, 2010.
20
   OIG Correspondence No. CC-2010-012, “OIG Review of FTI November 2009 Outage,” June 17, 2010.
                                                                                  16


     case, the NVS architecture may need to be redesigned, which will impact the
     program’s cost, schedule, benefits, and performance. Additionally, NVS
     program officials expressed concern that the current FTI system does not
     have enough security, which could leave the NVS program vulnerable to
     hacking or other security breaches. According to NVS program officials,
     these concerns are being addressed through ongoing annual assessments.

 • SWIM—SWIM program staff also raised security concerns about using FTI
   for information exchange. SWIM will use FTI to provide secure
   communications between NAS operational systems and external users by
   performing tasks such as security and virus checks on files transferred to
   FAA. Web service-enabled networks such as FTI are more vulnerable to
   internal and external attacks. Thus, SWIM’s reliance on FTI’s current
   technology could expose FAA and system users to security risks that could
   compromise existing network-based internal controls.

 • DataComm—According to DataComm program officials, FTI was identified
   as a potential risk because the system may not be capable of supporting its
   ground-to-ground communications requirements.

According to FAA’s FTI program officials, the Agency is taking steps to ensure
the FTI network can support NextGen initiatives. For example, officials maintain
that the current FTI network and supporting security infrastructure is capable of
meeting all ADS-B requirements. Moreover, the FTI program office is currently
working with DataComm, SWIM, NNEW, and NVS program offices to address
any concerns that their respective program officials have with using FTI services.
Finally, FTI program officials point out that as a risk mitigation strategy, they are
required to test system interfaces with FTI for any programs using FTI services in
order to verify network interoperability and security controls prior to going
operational. It will be imperative that FTI program officials remain vigilant as they
begin implementing these services on the FTI network.

CONCLUSION
FAA’s NextGen transformational programs are critical to its overall plans to
modernize the NAS and fundamentally change the way air traffic is managed.
Implementing the transformational programs is a complex undertaking involving
multiple programs and many players. FAA must change its approach from
traditionally overseeing independent programs to recognizing and effectively
managing the interdependencies between various programs and players. Moreover,
to successfully introduce new capabilities needed to realize benefits, FAA must
cut across multiple lines of business and ensure that it synchronizes and prioritizes
its acquisition investments. Until FAA establishes clear requirements and an
effective plan for integrating its complex interrelated NextGen efforts, FAA will
                                                                                17


run the risk of not delivering the multiple benefits of NextGen and will be unable
to ensure that it is efficiently using taxpayer dollars.

RECOMMENDATIONS
We recommend that FAA:

1.   Develop and set milestones for baselining each segment of the
     transformational programs through their end-state and identify the
     capabilities and benefits that will be delivered for each segment.

2.   Define and finalize the transformational programs’ NextGen requirements.

3.   Synchronize program requirements between the Transformational Program
     Offices and NextGen Integration and Implementation Program Office to
     ensure Agency NextGen goals are aligned with the transformational
     programs’ plans and to avoid schedule delays.

4.   Establish an integrated master schedule framework, policy, and standard
     operating procedures that include the Segment Implementation Plan and the
     transformational programs, and a timeline for maturing this capability.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on February 2, 2012, and received its
response on March 22, 2012. FAA’s response is included in its entirety as an
appendix to this report. FAA concurred with three of our four recommendations,
and partially concurred with the remaining recommendation. Based on FAA’s
response, we consider recommendations 2, 3, and 4 resolved but open pending
completion of planned actions. However, we are concerned that FAA’s response
did not meet the intent of recommendation 1, as detailed below.

For recommendation 1, FAA partially concurred and proposed actions that are
responsive, in part, to the intent of the recommendation. However, in its response,
the Agency states that it has already developed planning milestones for the
transformational programs’ baseline decisions in its Enterprise Architecture. FAA
also states that the Enterprise Architecture is reflected in its Capital Investment
Plan. While these planning documents provide some visibility into FAA’s plans,
there is no clear link between the segments of the transformational programs and
when their respective benefits and capabilities for enhancing capacity and
reducing delays will be delivered. This is one reason why there is so much
uncertainty among airspace users about NextGen. To help FAA set expectations
and better manage the NextGen portfolio, we are requesting that the Agency
                                                                              18


provide milestones for baselining each segment of the transformational programs,
and to outline the capabilities and benefits/operational improvements these
segments will provide. Accordingly, we consider recommendation 1 open and
unresolved pending receipt of this information.

ACTIONS REQUIRED
FAA’s planned actions for recommendations 2, 3, and 4 are responsive and we
consider these recommendations resolved but open pending completion of the
planned actions. For recommendation 1, we request that FAA provide information
on the transformational programs’ milestones for baselining the planned segments
and when expected benefits and capabilities will be delivered. In accordance with
Department of Transportation Order 8000.1C, we request that FAA provide this
information within 30 calendar days.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Kevin Dorsey, Program Director, at (202) 366-1518.


                                       #

cc: Pierre McLeod, AAE-100
    Martin Gertel, M-100
                                                                                19


EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
At the request of the Chairmen of the House Committee on Transportation and
Infrastructure and the House Subcommittee on Aviation, we examined FAA’s
plans for implementing the NextGen transformational programs. Specifically, our
objectives were to (1) determine the status of the programs’ cost, schedule, and
performance baselines, (2) assess FAA’s progress in implementing these
programs, and (3) identify the risks to achieving NextGen goals.

To determine the status of the programs’ cost, schedule, and performance
baselines, as well as FAA’s progress in implementing these programs and
identifying risk to achieving NextGen goals, we interviewed FAA officials and
analyzed various planning and funding documents for each of the six
transformational programs. We met with key program officials for each individual
program, as well as NextGen officials from the NextGen Integration and
Implementation Office. We performed analyses of the National Airspace System
(NAS) Capital Investment Plan (CIP), NAS Enterprise Architecture, FAA’s
NextGen Implementation Plan, and FAA’s President’s Budget Submissions. We
analyzed the NAS CIP to determine whether the programs have been baselined,
their proposed spending plans, and related NextGen goals. We analyzed the NAS
Enterprise Architecture because it defines the operational and technical framework
for the transformational programs and the transition strategy for moving from the
current to the target architecture. The NextGen Implementation Plan provides an
overview of FAA’s ongoing transition to NextGen and lays out the Agency’s
vision for the Next Generation Air Transportation System, now and into the mid-
term. We also analyzed the President’s Budget Submissions to determine funding
requests and benefits, and verify prior year appropriations.

We submitted and analyzed the results of detailed questionnaires sent to these four
program offices (DataComm, CATM-T, NNEW, and NVS) to determine the
current status of each program. In addition, we leveraged information obtained
from prior OIG reviews of both ADS-B and SWIM and obtained updated
information from the two program offices as necessary to address our objectives.

We conducted this audit in accordance with generally accepted Government
auditing standards as prescribed by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit was conducted between November 2009 and January 2012.




Exhibit A. Objecti ves, Scope, and Methodology
                                                                                                                                                               20


         EXHIBIT B. TRANSFORMATIONAL PROGRAMS
                                                                                                                                                         Total Program
       Program Description                          Next Gen Benefits                                Status and Risks to Implement
                                                                                                                                                        Costs Estimates
ADS-B

ADS-B is a satellite-based                • Provide more precise surveillance         Progress is being made with ADS-B--FAA reports that 275 of the      $4.0 Billion
surveillance technology that                information in high altitude airspace     800 planned ground stations have been deployed and system is
                                                                                                                                                          ($1.7 Billion
combines the use of satellites,             that will allow for reduced aircraft      in use at 5 key sites. Also, FAA has published a final rule
                                                                                                                                                         Baselined for
aircraft avionics, and ground-based         separation. (e.g., Gulf of Mexico         mandating that airspace users equip with ADS-B avionics by
                                                                                                                                                        Segments 1 & 2)
systems to provide more accurate            where radar coverage is not               2020. Key risks include:
information about aircraft location         available).
for pilots and air traffic controllers.                                               • User’s willingness to equip and FAA’s ability to define and
                                          • Enhance surface traffic management          implement requirements for ADS-B In advanced capabilities.
                                            by reducing taxi times and enhancing
                                                                                      • FAA has identified risks with integrating ADS-B to FAA
                                            safety by providing real-time traffic
                                                                                        automation platforms in both the terminal and en route
                                            picture accessible by airlines,
                                                                                        environment.
                                            controllers and equipped operators.
                                                                                      • Radio Spectrum Interference, particularly in congested
                                          • When “ADS-B In” information is
                                                                                        airspace on the East Coast.
                                            displayed in the cockpit, it can
                                            enhance pilots’ situation awareness,
                                            assist in spacing and merging, and
                                            lead to delegated and ultimately self
                                            separation for pilots.

SWIM

SWIM will provide for a more agile        • Reducing the number and types of          FAA has and continues to face challenges in developing and             To Be
exchange of information through a           NAS interfaces and systems to             implementing SWIM.                                                   Determined
secure, NAS-wide information web            reduce FAA costs.
that will connect FAA systems with                                                    • FAA has increased the cost estimate of segment 1 by more          ($263 Million
other agencies, and airspace              • All parties--FAA, airlines, and             than $100 million and has delayed its implementation by two       Baselined for
                                            airports--will be privy to same             years through 2015. We attributed the cost increases and           Segment 1)
users.
                                            information giving users the ability to     delays to an overly decentralized approach in which the SWIM
• Standard interfaces for FAA               make real time decisions and                program office has had limited ability to define requirements
  systems to increase                       improving use of existing capacity.         and coordinate activities among the FAA program offices.            (FAA will
  interoperability.                                                                   • The decentralized approach is not bad in and of itself, but         Baseline
• Standard data message set to                                                          creates risks for deploying SWIM nationwide. The lack of an       Segment 2 in
  improve data integrity.                                                               overarching, centralized perspective hinders FAA’s ability to         2012)
                                                                                        focus on SWIM end-state transition issues, alignment with
                                                                                        NextGen goals, and data integrity and security issues.



         Exhibit B. Tr ansfor mational Programs
                                                                                                                                                             21


                                                                                                                                                        Total Program
      Program Description                       Next Gen Benefits                                 Status and Risks to Implement
                                                                                                                                                       Costs Estimates
DataComm

DataComm will provide 2-way data      • Improve capacity by providing routine     Cost, schedule, and performance parameters for DataComm                   To Be
communication between                   and strategic information to the flight   have not been formally established. DataComm plans to split its         Determined
controllers, automation, and flight     crew, and automating some routine         final investment decision and obtain separate approvals for the
                                                                                                                                                          $1.4 Billion
crews; enhance air traffic control      tasks for both pilots and controllers.    ground network and tower automation (May 2012) and the En-
message generation.                                                               route services in a subsequent final investment decision. Industry      (Cost and
                                      • Improve safety by replacing some          is skeptical of FAA’s ability to implement the program because         Schedule Not
Segment 1 of DataComm will rely         voice communications between pilots       the Agency abandoned previous efforts. Risks include:                    Formally
on the FANS-1A avionics package         and controllers with data messages,                                                                               Baselined)
originally designed for the Oceanic     thereby eliminating multiple              • User Equipage - If users do not equip in significant numbers,
environment. FAA notes that             opportunities for errors.                   then projected benefits in will not be achieved.
Segment 2 may require more
robust data link capability given     • Boost controller productivity—FAA         • Major risks focus on integrating DataComm with FAA’s
expected requirements and               studies suggest using datalink              automation systems including:
                                        communications for routine
expanded use of the system.                                                            • ERAM - Continued problems with ERAM will impact the
                                        messages can enable controllers to
                                                                                         implementation of DataComm in the high-altitude
                                        manage 30% more aircraft.
                                                                                         environment.
                                                                                       • Terminal Radar Control enhancements (TRACON) - If the
                                                                                         integration of the TRACON Automation platform and the
                                                                                         DataComm services is not met then there will be delays
                                                                                         introducing Data Communication services (benefits) in the
                                                                                         terminal environment.
                                                                                       • Tower enhancements - If the Tower Data Link Service
                                                                                         automation enhancements are delayed, then the
                                                                                         DataComm deployment of Tower Services and the
                                                                                         benefits will be delayed.




        Exhibit B. Tr ansfor mational Programs
                                                                                                                                                        22




                                                                                                                                                   Total Program
      Program Description                    Next Gen Benefits                               Status and Risks to Implement
                                                                                                                                                  Costs Estimates
NAS Voice Switch (NVS)

NVS is a new air traffic control   • Use a network-enabled system of         NVS is still in the planning phase. A final investment decision is        To Be
infrastructure that will provide     switches to connect the                 not planned until August 2012. Primary Risks to NVS include:            Determined
network-capable switches and         communication lines between pilots,
control data and voice                                                        • Obsolescence Date Impact - If the obsolescence date of the          $253.8 Million
                                     controllers and facilities. Replace
                                                                                current voice switch system is earlier than expected then the       Estimated for
communication paths.                 obsolete hardware and software;
                                                                                program may incur increased cost and accelerated schedule              Seg. 1
                                     provide an architecture that supports
                                                                                to compensate.
                                     future growth.                                                                                                  (Cost and
                                                                              • FAA Telecommunications Infrastructure (FTI) is the system           Schedule Not
                                   • Replacement of the 13 different voice                                                                            Formally
                                                                                through which FAA will route data and information for all of
                                     switching systems (in both the                                                                                  Baselined)
                                                                                the NextGen Transformational programs. Without FTI, NVS
                                     terminal and en route environments)
                                                                                will be unable to complete its mission as a networked backup
                                     is expected to reduce maintenance
                                                                                voice communications system.
                                     and parts inventory costs.
                                                                              • Coordination with NextGen - The NVS program office initially
                                                                                planned to simply replace the current aging voice switch
                                                                                system. However, after coordination with the NextGen
                                                                                Program Office, NVS program officials realized that the voices
                                                                                switches they were planning to acquire would need additional
                                                                                capability and as a result the program has been delayed.




         Exhibit B. Tr ansfor mational Programs
                                                                                                                                                              23

                                                                                                                                                       Total Program
      Program Description                         Next Gen Benefits                               Status and Risks to Implement
                                                                                                                                                      Costs Estimates
NextGen Network Enabled Weather (NNEW)

NNEW is expected to serve as the        • Improve collaboration between FAA       It remains uncertain when improvised weather information can              To Be
infrastructure core of NextGen            and airlines by having common           be introduced and benefits realized. FAA is currently planning to       Determined
aviation weather support services         access to virtual weather database.     deploy an initial operating capability in 2016.
                                                                                                                                                         $275.0 Million
and provide access to a NAS-wide                                                  • NextGen 4-D Weather Cube Information Management
common weather picture. NNEW            • Enable access to standard weather                                                                              Estimated for
                                          data by all NextGen users by              Process is not fully defined and FAA has not completed all              Seg. 1
will enable integration of weather                                                  the system engineering and performance analysis to
information into decision support         establishing a 4-D Weather Cube—a                                                                               (Cost and
                                          virtual database intended to provide      determine if requirements can be met.
systems for controllers and air                                                                                                                          Schedule Not
traffic managers.                         common, universal access to aviation    • NNEW’s reliance/dependence on the SWIM and FAA’s FTI                   Formally
                                          weather data including data that will     programs.                                                             Baselined)
                                          be designated as the “Single
                                          Authoritative Source”.

Collaborative Air Traffic Management Technologies (CATM-T)

In FY 2010, Collaborative Air Traffic   • The primary objective of CATM-T is      Work is underway to develop new software capabilities for TFM             To Be
Management Technologies (CATM-            to further enhance the modernized       and incrementally implement them through 2016. FAA has yet to           Determined
T) was declared a NextGen                 TFM System and continue the             be set a date for the final investment decision for the remaining
Transformational Program that             deployment of new capabilities in       planned CATM-T Work Package. Risks include:                            $162.5 Million
provides software enhancements to         support of Collaborative Decision                                                                               Baselined for
the existing Traffic Flow                                                         • Software Development - Due to complexity of algorithms,            initial two phases.
                                          Making (CDM) between FAA and
Management (TFM) system.                                                            potential risk that developed algorithms will not meet desired
                                          airlines.
                                                                                    results and transfer into useful operational software.
                                        • CATM-T provides new functions and       • Program Dependencies - Risk other programs ERAM, SWIM,
                                          enhanced capabilities to the TFM          and TFMS may not deliver expected capabilities or meet
                                          system via software releases to           schedule requirements. Delay in TFMS would ripple delay
                                          improve NAS traffic flow prediction       into CATM-T.
                                          and overall system capacity.
                                                                                  • Realization of Full Benefits - May not occur.
                                                                                  • Contract Management - According to FAA program officials,
                                                                                    there is risk that the contractor may fail to provide products
                                                                                    on time and with the desired quality.
                                                                                  • User Acceptance - Risk that users may resist additional
                                                                                    capabilities, delaying implementation and incurring
                                                                                    unplanned costs. Users may not use capabilities to their full
                                                                                    potential and benefits will not be realized.




       Exhibit B. Tr ansfor mational Programs
                                                                       24


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

  Name                 Title

  Matthew Hampton      Deputy Assistant Inspector General for Aviation and
                       Special Program Audits

  Kevin Dorsey         Program Director

  Lillian Slodkowski   Project Manager

  Arthur Shantz        Technical Advisor

  Melissa Pyron        Senior Auditor

  Kimberly Leading     Senior Auditor

  Kiesha Henson        Auditor

  Jennifer Hoffman     Analyst

  Andrea Nossaman      Writer-Editor

  Audre Azuolas        Writer-Editor




Exhibit C. Major Contributors to This Report
                                            25


APPENDIX A. FAA’S ACQUISTION LIFECYCLE




Appendix A. F AA's Acquisition Lifec ycle
                                                                                                 26

APPENDIX B. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:
To:          Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special Program
             Audits
From:        H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:     Department of Transportation, Office of Inspector General (OIG) Formal Draft Audit
             Report: Status of Transformational Programs and Risks to Achieving NextGen Goals



The Next Generation Air Transportation System (NextGen) represents a fundamental redesign of
the air transportation system. This initiative is the largest and most complicated acquisition the
FAA has taken in a generation. The six “Transformational” programs--Automatic Dependent
Surveillance Broadcast (ADS-B), System Wide Information Management (SWIM), Data
Communications (Data Comm), NextGen Network Enabled Weather (NNEW), NAS Voice
Switch (NVS), and Collaborative Air Traffic Management Technologies (CATM-T)--represent
core capabilities necessary to support future NextGen operational improvements. Because of the
size and complexity of these acquisitions, the FAA has chosen to pursue a segmented approach
to implementing these programs. Three of these investments (ADS-B, CATM-T, and SWIM)
are baselined programs and are in the investment process for their second segments. All have
dependencies with other systems and the use of segmentation reduces the overall implementation
footprint by allowing integrated schedules for delivery.

The FAA understands that managing the development of these systems and their integration into
the current NAS infrastructure is complex and requires enterprise engineering, planning, and
program management. Last year, the FAA conducted an examination of its enterprise activities
as part of its Foundations for Success agency review. In response to the issues identified by that
activity, the FAA has made three changes to its delivery of NextGen:
        1. Elevated the NextGen Organization and emphasized its role from operational change
           objectives through the delivery of capabilities;
        2. Established a Program Management Organization within the Air Traffic Organization
           to strengthen program management and to improve the ability to integrate and
           coordinate between investment programs; and




Appendix B. Agency Comment s
                                                                                                27

     3. Developed an “Ideas to In-Service” process (I2I) to complement the Acquisition
        Management System and establish more formal enterprise controls on the process of
        moving from concept and operational requirements to investment and implementation.
        This process has been approved by the NextGen Management Board and is already in
        implementation within the agency.

The agency has had an Enterprise Architecture (EA) with both Service and Infrastructure
Roadmaps laying out the operational and investment path. It has a system engineering process
that takes concept and operations requirements into system requirements and investments. I2I is
a response to lessons learned and strengthens the enterprise traceability, cross organizational
commitment and integration of investments required to better manage the long term delivery of
these programs.

I2I mitigates risks associated with segmentation. Treating each segment in isolation can lead to
mismatches at integration. I2I provides the unifying process to assure an increment delivery is
directly related to a capability delivery.

Recommendation 1: Develop and set milestones for when the Agency will baseline each
segment of the transformational programs through their end-state and identify what capabilities
and benefits will be delivered for each segment.

FAA Response: Concur in part. The FAA has developed planning milestones for the
transformational programs’ baseline decisions in the EA. An EA establishes a most likely path
for implementation. Since it extends beyond a decade, levels of planning are commensurate with
the maturity of the investment. The EA outlines the evolution of the NAS, including the
transformational programs. For near-term investments, the detail provided in the EA is of higher
fidelity, since it reflects the baseline decision made at the final investment. Beyond the ten-year
horizon, the plan provides an affordable estimate for these outyears, along with projected
milestones, schedules and costs, based upon engineering judgment for the long-term investments.

In between the baselined investments and the long term plans are the operational capabilities that
have completed service analysis and are entering the formal investment process. These
investments address validated shortfalls but the schedules are subject to both dependencies on
the current and future schedule of legacy programs, as well as affordability. More refined cost
estimates derived through the investment process or changes in budget guidance may require
changes to the planning milestones. Technical dependencies and the schedules of systems for
which integration is required may also change the enterprise level schedule. The NextGen
Segment Implementation Plan (NSIP) aligns NextGen improvements, increments, and
capabilities to programs, and where appropriate, an allocation is made to program baselines such
as work packages and their anticipated schedule of implementation.

The NAS EA is both a planning and investment document. It supports annual budget
development and is part of the agency’s Acquisition Management System. It is subject to annual
reviews, updates and approval by the Joint Resource Council, and is usually published by
February each year. The annual review and update coincides with the budget cycle with final
adjustments and approval coinciding with the annual budget submission. The EA’s five-year
plan for the FAA’s capital investment is also reflected in the Capital Investment Plan, which is
delivered annually to Congress as part of that submission. Baselined programs are also subject

Appendix B. Agency Comment s
                                                                                                28

to additional review and reporting as part of the AMS and the programs status as well as
interdependencies reflected in the annual EA update.

Finally, with respect to the end-state, this recommendation presupposes that the transformational
programs are "end-state" programs. In fact, they are interrelated building blocks upon which the
FAA will continue to grow, in order to meet the changing demands of all aviation users, as well
as allow for evolving technology. For example, ADS-B is being purchased as a service, instead
of the FAA purchasing and installing the infrastructure itself, in large part because technology is
quickly evolving. Through a service-based contracting approach, ADS-B capabilities can more
rapidly evolve to meet future service needs of the users of the air traffic control system.

Recommendation 2: Define and finalize the transformational programs’ NextGen
requirements.

FAA Response: Concur. The FAA understands the need to define and finalize the
transformational programs’ NextGen requirements. In the NextGen concept of operations, the
FAA has defined what our long-term goals are for each of the transformational programs. The
specific products needed to meet these goals are developed in a segmented approach. This
segmented approach provides a framework to develop practical and workable system
requirements for each phase of the transformational program, adjust for budgetary realities, and
ultimately make wise investments. With each segment, the FAA moves incrementally forward
in providing expanded capabilities and performance, for the aircraft, the operator, and the
controller.

Each segment starts with detailed operational requirements (the "what is it that we need to
improve or sustain service?") that are developed into well-defined system requirements (the
"what do we need to purchase as infrastructure to achieve that service?"). Once the FAA has
developed those system requirements, the agency can move forward with a baseline investment
decision. As the agency moves to final investment and implementing one segment, the detailed
service analysis on the next segment is being performed to assure decisions in each segment are
aligned. This segmented approach does not change the concepts and goals that were originally
determined, but it does permit flexibility in the face of technological and budgetary realities.
Rather than leading to requirements creep, it supports requirements reality by enabling more
informed decisions.

This approach allows the FAA to define the overall approach and benefits for the
transformational program, leaving the more detailed system engineering to the finalized
allocation and system requirements that are part of the investment process. This is important
because these transformational programs require not only a near term investment into their core
functionality as a new system, but also rely heavily on investing in our existing automation
infrastructure and the other transformational programs. For example, both the ADS-B and
DataComm program investments in operational capabilities include modifications and
enhancements to En Route Automation Modernization and Terminal Automation
Modernization/Replacement.

This segmented approach is in keeping with the lessons the FAA learned in trying to field a
turnkey system to replace the existing NAS in the early 1990s, and is also in keeping with
Government-wide experience with large, complex investment acquisitions stretching out over

Appendix B. Agency Comment s
                                                                                                   29

long horizons. The agency believes this segmented approach is prudent to achieve both near
term successes and reduce risk over the long term.

NSIP 5.0, which includes the Bravo segment of 2015-2020, will be completed and approved
second quarter of FY13 concurrent with the FY14 budget submission. NSIP Bravo contains
operational objectives and system allocations through 2020. This includes the next segments of
the transformational programs as well as the allocations to future release of our foundational
automation systems such as ERAM, Traffic Flow Management System (TFMS), and Time-
Based Flow Management System (TBFM). These allocations provide the basis for moving these
next segments through investment analysis to implementation.

Recommendation 3: Synchronize program requirements between the Transformational
Program Offices and NextGen Integration and Implementation Program Office to ensure Agency
NextGen goals are aligned with the transformational programs' plans and to avoid schedule
delays.

FAA Response: Concur. The FAA recognizes the value in strengthening program
synchronization and alignment, and has already taken steps in that direction. The FAA’s
Foundation for Success project identified key areas for improvement surrounding governance,
process, capabilities, and culture, and effected organizational changes to improve the strategic
direction of NextGen and improve program management in the Air Traffic Organization.

As part of this effort, the FAA is instituting a new, evolving, Idea to In-Service (I2I) process to
compliment FAA’s existing Acquisition Management System. The philosophy underlying the
development of this new process is to provide the necessary structure and governance to address
changes to NAS policy, procedures, programs and systems in a more coordinated manner.

In addition, the FAA established the NextGen Segment Implementation Plan (NSIP) to ensure
that all programs and capabilities are implemented in a coordinated manner, and that
interdependencies amongst systems and capabilities are recognized. Segment Alpha, which
covers the years 2011-2015, has been published and a planned Segment Bravo, which will cover
the years 2016-2018, is being completed. The NSIP identifies all of the planned system and
procedural changes scheduled for the next five years; identifies their interdependencies; and
tracks their implementation. This planning effort, together with the development of an
Integrated Master Schedule (IMS), will also strengthen program synchronization and alignment.

Recommendation 4: Establish an integrated, master schedule framework, policy and standard
operating procedures that include the segment Implementation Plan and the transformational
programs and a timeline for maturing this capability.

FAA Response: Concur. In December 2011, the FAA’s NextGen Management Board approved
version 4.0 of the NextGen Segment Implementation Plan (NSIP) – Segment Alpha. The NSIP
is the integrated program plan for implementation of the segment which includes NextGen
activities through 2015. Currently, work is underway on Segment Bravo which will extend the
NSIP through 2018 and will include all NextGen Operational Improvements, increments, and
integrated schedule information for NextGen implementation. The initial draft of NSIP Bravo
(version 5.0) is expected to be completed by December 31, 2012.


Appendix B. Agency Comment s
                                                                                              30

The NextGen IMS is a tool designed to capture and track progress of schedule activities for the
twelve NSIP Portfolios. The NSIP Portfolios include:

       - Collaborative Air Traffic Mgmt.                 - On-Demand NAS Information
       - Improved Surface Operations                     - Separation Management
       - Time-Based Flow Management                      - Common Services
       - Improved Multiple Runway Ops                    - Environment and Energy
       - Imp Approaches and Low-Vis Ops                  - System Safety Management
       - Performance Based Operations                    - Policy

Additionally the IMS captures Pre-Implementation (solution set) activities which provide
information on the progress of development work planned for Segment Bravo and beyond. This
year, the IMS will be expanded to show dependencies in Segment Alpha between Operational
Improvement increments and programs, and following completion of Segment Bravo, the IMS
will be expanded to show dependencies through 2018.

The NAS Lifecycle Integration Office conducts quarterly Portfolio Management Reviews with
Portfolio Team members to review progress and update the IMS. Additionally, Investment
Portfolio Leaders work closely with NSIP Increment owners and program leads to update the
IMS. NSIP progress is presented to the NextGen Management Board with reports provided in
February, April, June and August of each Fiscal Year. The NSIP and IMS serve as the primary
Enterprise Management tools to manage the integration and sequencing of NextGen initiatives.




Appendix B. Agency Comment s
